August 13, 2009

DOUGLAS A. TULINO
VICE PRESIDENT, LABOR RELATIONS

DAVID E. WILLIAMS
ACTING VICE PRESIDENT, ENGINEERING

AREA VICE PRESIDENTS


SUBJECT: Audit Report – Custodial Maintenance: Nationwide
         (Report Number DA-AR-09-011(R))

This report presents the results of our audit of custodial maintenance operations
nationwide (Project Number 09YG021DA000). The U.S. Postal Service Office of
Inspector General (OIG) initiated this audit to expand upon a similar audit of the New
York District.1 In the New York District report, we noted excessive costs along with
redundancies in cleaning at the sites selected for review. The focus of this audit was to
identify whether similar opportunities exist to reduce cleaning costs nationwide. See
Appendix A for additional information about this audit.

Postal Service Can Significantly Reduce Custodial Maintenance Hours

In fiscal year (FY) 2008, the Postal Service used 3.4 million cleaning hours more than
necessary for the 436 sites reviewed. The Postal Service used about 28 million total
hours in 2008 to clean facilities, scheduling tasks as many as 6.8 days a week in some
areas, requiring maximum staffing. The use of additional hours was prevalent for a
variety of processing, customer service, and support facilities under our review
because:

        The arbitrated custodial maintenance standard2 differed from benchmark
        custodial practices. For example, cleaning at benchmark sites was limited to one
        time per day while Postal Service standards, at times, call for cleaning on each
        tour.

        Many scheduled cleaning tasks overlap a lighter form of cleaning called policing,
        and the two are largely duplicative.

1
 Custodial Maintenance: New York District (Report Number DA-AR-09-007, dated April 7, 2009).
2
 The Postal Service custodial maintenance standard, Handbook MS-47, Housekeeping Postal Facilities, June 1983,
allows for a frequency range of 2 to 7 days a week for cleaning its facilities nationwide.
Custodial Maintenance: Nationwide                                                                     DA-AR-09-011(R)




         Sites visited could not validate whether management updated their staffing
         packages3 annually as required by Postal Service policy.

If management reduced cleaning frequencies and eliminated the duplication of cleaning
and policing activities, these sites could save $848 million4 over 10 years, while
maintaining an acceptable standard of cleanliness and safety.

We recommend Area Vice Presidents direct maintenance managers to:

1. Update staffing packages to eliminate duplication in cleaning operations, including
   an adjustment of cleaning frequencies as determined by local conditions.

In addition, we recommend the Acting Vice President, Engineering, in coordination with
the Vice President, Labor Relations:

2. Conduct a Lean Six Sigma process improvement initiative in conjunction with the
   American Postal Workers Union to identify non-value tasks in the current custodial
   standard and negotiate revisions.

The Postal Service Can Reduce Custodial Maintenance Labor Costs

Larger Postal Service facilities incur increased costs for custodial services because:

         Hourly rates for full-time Postal Service custodial employees nationwide are
         $21 higher than current contractual custodian rates.

         The collective bargaining agreement5 between the Postal Service and the
         American Postal Workers Union (APWU) restricts the use of contract cleaning
         services to smaller Postal Service facilities.

By continuing to restrict contracted custodial services to small facilities, the Postal
Service will incur an additional $148 million in costs over the next 10 years for cleaning
services. We previously reported6 that the Postal Service has an opportunity to
negotiate removal of this restriction in the new collective bargaining agreement.
Savings would be realized as positions become available through attrition. We
acknowledge that the Postal Service needs the cooperation and agreement of the
APWU to achieve these savings.



3
  Staffing packages consist of Postal Service (PS) Form 4869, Building Inventory; PS Form 4839, Custodial
Scheduling Worksheet, and PS Form 4852, Workload Analysis and Summary.
4
  NY Metro Area sites were excluded from our monetary calculation because of our earlier reporting of savings.
5
  The duration of the agreement is November 21, 2006, through November 2010. Small Postal Service facilities are
defined by a formula that incorporates both interior and exterior square footage. This formula is part of the Collective
Bargaining Agreement.
6
  Custodial Maintenance: New York District (Report Number DA-AR-09-007, dated April 7, 2009).


                                                           2
Custodial Maintenance: Nationwide                                                              DA-AR-09-011(R)



In comparison, the U.S. General Services Administration (GSA) — which owns 1,523
federal properties — contracts custodial services for 95 percent of them. GSA also
contractually requires lessors to perform custodial services for its 7,100 leased
properties. Additionally, the private sector companies we benchmarked also relied on
either contract services or non-custodial employee participation to clean their
surrounding areas.

Because we previously addressed expanding contract services in the New York District
audit report, we make no additional recommendations for this finding. We note the Vice
President, Labor Relations, agreed to review the benefits of extending contract eligibility
to larger facilities in the next collective bargaining agreement negotiations.

We received comments from the APWU in this matter. The President of the APWU
expressed concerns that the OIG inappropriately interfered with the collective
bargaining agreement covering custodial services. While we respect differences in
opinion, the OIG has a mandate7 to promote economy and efficiency in the Postal
Service. Thus, recommendations made to management to lower the cost of custodial
services remains within our statutory responsibilities. See Appendix B for our detailed
analysis of these topics.

Management’s Comments

The Acting Vice President, Engineering, and Area Vice Presidents8 agreed with
recommendation 1 to update staffing packages. The Maintenance Policies and
Programs office will continue to advise field maintenance managers to revisit custodian
staffing packages to ensure accuracy of custodian work requirements, and use
processes to achieve objectives of optimum productivity, minimum cost, and acceptable
levels of cleaning. Management stated ongoing efforts since FY 2007 through projected
end of FY 2009 would result in the reduction of 1,840,865 workhours. Management
plans on reducing custodial workhours by another 1,800,000 hours in FY 2010.
Additionally, management recently added a system module for the certification of site
custodial staffing packages.

The Acting Vice President, Engineering also agreed with recommendation 2 to initiate a
Lean Six Sigma improvement process. The Maintenance Policies and Programs office
will coordinate with Labor Relations to work with the APWU to initiate such an
improvement project. The Vice President, Labor Relations, commented that such an
initiative requires negotiation with the APWU and cannot be implemented unilaterally.
Consequently, a review will be made during negotiation preparations to determine if this
initiative fits into the Postal Service’s overall maintenance negotiations strategy.



7
  ASM § 241, ASM § 242, 39 C.F.R. § 221.3 and 5 U.S.C. app. 3.
8
 We received written responses from the Southeast, Western, Capital Metro, and Pacific Area Vice Presidents. The
Great Lakes, Northeast, Southwest, New York, and Eastern Area Vice Presidents provided email correspondence
stating their agreement with the recommendation.




                                                        3
Custodial Maintenance: Nationwide                                          DA-AR-09-011(R)



In response to the monetary impact presented, management conveyed the amount
might be overstated as not all sites staff cleaned close to 7 days a week. In addition, a
weighted hourly cost for contractor cleaning across all areas would reduce distortions by
extreme values. However, these differences would be relatively minor. See
Appendix E for management’s, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. In respect to
monetary impact presented, our calculations included only those sites that had the
potential to reduce frequencies and recognized that not all sites clean at the same
weekly frequency. For contract rates used in our calculation, we considered information
provided by the Western Services Category Management Center. Their hourly rates
averaged $14.08 for 184 contracts throughout the nation. The rate we used ($15)
provides for a conservative calculation.

The OIG considers both recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
management completes corrective actions. These recommendations should not be
closed in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, Director,
Engineering, or me at (703) 248-2100.




Andrea Deadwyler
Acting Deputy Assistant Inspector General
for Support Operations

Attachments

cc:    Patrick Donahoe
       Steven J. Forte
       Edward L. Gamache
       Bill Harris




                                            4
Custodial Maintenance: Nationwide                                            DA-AR-09-011(R)



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service tracks financial and workhour data for custodial maintenance under
labor distribution code 38 (LDC 38). A summary of this data showed that custodial
salaries and benefits for FY 2008 totaled approximately $1 billion nationally.

Handbook MS-47, Housekeeping Postal Facilities, establishes the specific criteria for
cleaning and maintaining Postal Service facilities and the method for determining
appropriate staffing levels. The handbook enumerates a three-step procedure for
determining custodial maintenance staffing. Specifically, each site must:

    1. Prepare PS Form 4869, which lists the internal and external square footage of
       the facility.

    2. Develop requirements for the frequency of performance using PS Form 4839.

    3. Calculate cleaning staff requirements for the building by completing PS
       Form 4852.

The Postal Service should review and recalculate the three-step procedure at least
annually so it can implement required staffing adjustments.

OBJECTIVE, SCOPE, AND METHODOLOGY

The OIG issued an audit report of custodial maintenance in the New York District and
noted redundancies in cleaning at the sites selected for review. The focus of this audit
is to identify whether similar opportunities exist to reduce cleaning costs nationwide. To
accomplish our objective, we reviewed and analyzed Postal Service data on staffing
levels, workload scheduling, attrition rates, and outsourcing practices. We also
benchmarked custodial standards against federal and private sector practices. As
depicted in Table 1, the 436 sites selected for review included mail processing facilities,
customer service facilities, and support facilities. These sites used over 18 million
workhours to perform custodial maintenance during FY 2008, which was 65.8 percent of
the total cleaning workhours the Postal Service used in the LDC 38 category.




                                             5
Custodial Maintenance: Nationwide                                        DA-AR-09-011(R)



             Table 1 – Classification of 436 Sites Reviewed and Analyzed

                                                                       Percent of
                     Facility Use Description                 Count
                                                                         Count
     Mail Processing Facilities                                 183             42

     Customer Service Facilities                                155             36

     Support Facilities Serviced by Major Facility Office        62             14

     Support Facilities Serviced by Facility Service Office        8             2
     Description Not Recorded in Management System               28              6
     Total                                                      436           100

We conducted visits to 11 sites that were comprised of bulk mail centers (BMCs) and
processing and distribution centers (P&DCs) in the Pacific, Southwest, and Capital
Metro Areas. These included some sites we considered benchmarks based on the level
of scheduled cleaning. We also created an Internet forum and invited 511 managers via
email to participate. We extracted workhour data from the eFlash and payroll systems
and schedule information from the Electronic Maintenance Activity Reporting and
Scheduling System (eMARS). The data in these systems was sufficiently reliable to
answer our objective.

We conducted this performance audit from February through August 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on June 25, 2009, and included their
comments where appropriate.




                                             6
Custodial Maintenance: Nationwide                                                      DA-AR-09-011(R)



PRIOR AUDIT COVERAGE

    Report           Report         Final Report        Monetary
     Title           Number             Date             Impact                  Report Results
  Custodial        DA-AR-09-007     April 7, 2009       $48.2 million   The report determined the Postal
  Maintenance:                                          over 10 year    Service incurred higher costs due to
  New York                                              period          both excessive labor hours and
  District                                                              higher labor rates. We made two
                                                                        recommendations. The first
                                                                        recommendation was to update
                                                                        staffing packages to eliminate
                                                                        duplications in cleaning operations,
                                                                        including an adjustment in cleaning
                                                                        frequencies as determined by local
                                                                        conditions. New York District
                                                                        management agreed to this
                                                                        recommendation and reviewed
                                                                        staffing packages, eliminating 54
                                                                        custodial positions. They are further
                                                                        evaluating positions at the Morgan
                                                                        P&DC.

                                                                        The second recommendation was to
                                                                        review the benefits of extending
                                                                        contract eligibility to larger Postal
                                                                        Service facilities in the next
                                                                        collective bargaining agreement
                                                                        beginning in November 2010 and
                                                                        subsequently fill custodial positions
                                                                        lost through attrition. In response to
                                                                        this recommendation, the Vice
                                                                        President, Labor Relations, agreed
                                                                        to review the benefits of extending
                                                                        contract eligibility to larger postal
                                                                        facilities in the next collective
                                                                        bargaining agreement negotiation.
  U.S. Postal      GAO-08-787       July 24, 2008       None            The GAO reported that, although the
  Service: Data                                                         Postal Service had difficulty
  Needed to                                                             measuring outsourcing success, it
  Assess the                                                            viewed outsourcing as an important
  Effectiveness                                                         strategy for achieving the cost
  of                                                                    savings. The GAO recommended
  Outsourcing                                                           the Postmaster General establish a
                                                                        process to track the results of
                                                                        outsourcing activities that are
                                                                        subject to collective bargaining and
                                                                        report those results to Congress.
                                                                        The Postal Service agreed with the
                                                                        findings and recommendations, but
                                                                        not with providing Congress with
                                                                        outsourcing results.




                                                    7
Custodial Maintenance: Nationwide                                                       DA-AR-09-011(R)



                            APPENDIX B: DETAILED ANALYSIS

Frequency of Custodial Maintenance Cleaning

Our analysis of 436 sites and their cleaning frequencies indicated the Postal Service
could be more efficient in its cleaning operation. As shown in Chart 1, this condition is
prevalent for six cleaning tasks defined in Handbook MS-47. Custodial schedules
showed three areas — lunchroom, workroom floor and workroom toilet — had both
cleaning and policing (lighter cleaning) tasks scheduled over 6 days a week.
Appendix D provides a further breakdown of these scheduled tasks by area office.
                    Chart 1 – Average Cleaning and Policing Frequencies for 436 sites




        Source: eMARS, February 10, 2009


Postal Service policy allows managers to schedule these cleaning tasks from 2 to
7 days a week. Managers have less discretion in scheduling policing tasks, as the
policy generally calls for once per tour per day in facilities with two or more tours.
Smaller facilities can perform policing on an as-needed basis.

To determine causes for cleaning at maximum frequencies, we conducted an Internet
forum. In summary, 62 percent of managers who participated suggested revising
custodial standards to support a reduction in cleaning hours. As such, we benchmarked
the policies in Handbook MS-47 against federal and private sector entities. This
analysis showed that Postal Service cleaning standards differ from other federal and
private sector practices, specifically in these entities:

       Employees conducted one form of cleaning no more than once per day. The
       Postal Service also ―cleans‖ once per day, but at times ―polices‖ (a lighter form of
       cleaning) on each tour.



                                                   8
Custodial Maintenance: Nationwide                                               DA-AR-09-011(R)



          Management emphasized the outcome of cleaning more so than the frequency.
          For example, a benchmark standard included an outcome measure that ―all
          porcelain surfaces of washbasins, toilets, and urinals will be free of dust, dirt,
          spots, and stains‖ while the postal service standard only specified task, material,
          and frequency range.

          Management valued automation like ride on sweepers over manually sweeping
          open workroom areas with a treated dry mop.

          Management emphasized each employee’s personal accountability for keeping
          surrounding areas clean while the Postal Service employs dedicated custodians.

Secondly, although Postal Service managers have some discretion for scheduling
cleanings, they adhere to Postal Service policy9 in which many cleaning tasks overlap
policing tasks and are duplicative. In some cases, tasks were no longer relevant. For
example, we noted redundancies in each of the following:

          Toilets – There are several redundancies between cleaning and policing tasks,
          including sweeping floors, toilet cleanliness, and trash removal. Policing includes
          checking plumbing and flushing toilets and urinals, a task that is contrary to water
          conservation.

          Locker Rooms – Cleaning and policing tasks for trash removal and mopping are
          redundant.

          Corridors – Cleaning and policing tasks for emptying trash receptacles and
          cleaning cigarette urns are redundant. The latter is not applicable since smoking
          is prohibited in buildings.

          Lunch Rooms – Cleaning and policing tasks for damp wiping tables and
          removing trash are redundant.

          Docks – Cleaning and policing tasks for sweeping and trash removal are
          redundant.

          Workrooms – Cleaning and policing tasks for sweeping and trash removal are
          redundant.

Lastly, our analysis of site staffing packages could not confirm that management had
updated the packages annually. While Postal Service officials were able to provide us
with current summaries, they could not validate previous submissions. Periodically
reviewing staffing packages allows the Postal Service to adjust custodial staffing
requirements locally.


9
    Handbook MS-47, Chapter 4.


                                                9
Custodial Maintenance: Nationwide                                             DA-AR-09-011(R)



We noted some significant changes that impact custodial requirements including:

       Yearly declines in occupancy and mail volume should call for reduced cleaning of
       less used areas.

       The recent compression of processing tours should prompt a realignment of
       policing tasks described above from being performed on three tours at
       processing facilities.

By over-allocating staff resources for a cleaning schedule that exceeded the minimum
frequency, the Postal Service incurred unnecessary workhours and costs. If local
conditions permit, reducing the cleaning category frequencies from 7 to 4 days (still
higher than the minimum requirement) would allow a reduction in labor hours in excess
of 3.4 million hours at the 436 sites reviewed. This equals a reduction in complement of
approximately 1,952 positions and a savings of approximately $848 million over 10
years. Because this expense is avoidable, we will report this amount in our Semiannual
Report to Congress as funds put to better use. See Appendix C for our detailed
calculations.

Custodial Maintenance Compared to Contractor Costs

Postal Service guidelines restrict eligibility for cleaning service contracts to small Postal
Service facilities. Larger Postal Service facilities incur increased costs for custodial
services because the hourly rates for custodial full-time employees in the nation are
$21 higher than current contractor rates. However, the current labor agreement inhibits
the Postal Service from fully realizing this cost savings. Specifically, Section 131 of MS-
47, states that ―Cleaning service contracts are governed by the Administrative Support
Manual, and must be in accordance with the current National Agreements,‖ which, in
this case is the collective bargaining agreement between the Postal Service and the
APWU. These guidelines specify that management can only use contract cleaning
services when a vacancy is the result of an employee’s voluntary attrition and must limit
contracts to facilities that meet a union-imposed size restriction. Facilities that exceed
these parameters are restricted from using contract cleaning services and must use
existing custodial labor.

For comparison purposes, we reviewed cleaning contracts for facilities in some area
offices. These contracts provided custodial services in the offices that met the labor
requirements above. The average hourly rate for these contracts is $15, including
supervision costs. In comparison, the fully loaded rate for Postal Service custodians
nationally is $36 per hour.

Although the Postal Service is bound by the current collective bargaining agreement
through November 20, 2010, there is an opportunity to extend cleaning contracts to
larger Postal Service facilities in the next agreement. More use of contract cleaning
services when vacancies occur through attrition in large Postal Service facilities would
allow savings of approximately $148 million over the next 10 years. However, we



                                             10
Custodial Maintenance: Nationwide                                         DA-AR-09-011(R)



acknowledge that management needs the cooperation and agreement of the APWU to
achieve these savings. Because these costs are avoidable, we will report this amount
in our Semiannual Report to Congress as funds put to better use. See Appendix C for
our detailed calculations.

For comparison purposes, we benchmarked custodial contract use against federal and
private sector entities. We noted:

       The GSA, which owns 1,523 federal properties, contracts custodial services for
       95 percent of those facilities. The GSA makes an effort to contract to
       organizations that employ handicapped and disabled personnel. This is in
       contrast to the Postal Service, whose employees clean 95 percent of owned
       properties.

       The GSA contractually requires lessors to perform custodial services for the
       7,100 properties it leases. The Postal Service dedicates employees to clean
       leased properties.

       The private sector companies benchmarked also relied on either contract
       services and/or non-custodial employee participation to clean their surrounding
       areas. The Postal Service dedicates employees to custodial services.




                                           11
                Custodial Maintenance: Nationwide                                                                                             DA-AR-09-011(R)



                                           APPENDIX C: MONETARY IMPACT CALCULATIONS AND ASSUMPTIONS

          FY                   2009           2010          2011          2012           2013            2014            2015           2016           2017           2018           2019
     Project Year                0              1             2             3              4               5               6              7              8              9             10

Reduce workload

Remove 3,411,431 hrs
through normal attrition                    $14,131,243   $42,944,848   $72,505,218   $102,826,900    $133,562,816    $135,299,132   $137,058,021   $138,839,775   $140,644,693   $142,473,074
over 5 years

Discounted labor
                                             13,653,375    40,089,475    65,395,552     89,607,703     112,456,307     110,065,931    107,726,366    105,436,530    103,195,367    101,001,842
reduction savings

NPV (Position
reductions)
                            $848,628,448

Convert USPS labor
to contract labor

Saved cost at USPS fully-
                                                     0             $0            $0              $0        $2,200      $15,440,549    $46,181,136    $77,718,368   $110,067,764   $143,245,110
loaded labor rates

Expended at contract
                                                     0             $0            $0              $0        -$1,039     -$7,364,463   -$22,243,808   -$37,803,707   -$54,067,595   -$71,059,623
labor costs

             Net savings                             0             $0            $0              $0        $1,161       $8,076,086    $23,937,328    $39,914,661    $56,000,170    $72,185,488

Discounted contracting
savings                                              0             0             0               0              978      6,569,901     18,814,523     30,311,655     41,089,059     51,173,650


NPV (Contracting)           $147,959,767



NPV(Position
Reductions) +               $996,588,215
NPV(Contracting)




                                                                                            12
Custodial Maintenance: Nationwide                                       DA-AR-09-011(R)



                  APPENDIX C: MONETARY IMPACT CALCULATIONS
                         AND ASSUMPTIONS (Continued)

We based the above calculation of monetary impact on facts, as well as some high-
probability assumptions derived from the data. These facts and assumptions are as
follows:

                             Assumption                              Factor
  Fully loaded rate, LDC 38, FY 2008                                          $36.23
  Contract custodial labor rate, FY 2009                                      $15.00
  Postal Service labor escalation rate                                        1.80%
  Contract labor escalation rate                                              2.80%
  Postal Service cost of borrowing                                            3.50%
  Estimated annual LDC 38 attrition hours                                   760,150
  Estimated annual LDC 38 attrition hours in 436 subject sites          18,529,631
  Beginning total annual workhours                                      28,166,316
  Annual hours saved due to workload reduction, year 1                    3,411,431




                                            13
           Custodial Maintenance: Nationwide                                                     DA-AR-09-011(R)



                                          APPENDIX D: AVERAGE FREQUENCY BY FIELD AREA OFFICES

                                                                                  Area Office
Custodial Task MS-47      Capital Metro        Eastern   Great Lakes   NY Metro      Northeast     Pacific   Southeast   Southwest   Western   Averages


Corridor Clean                   5.8             6.1         5.8          6.2            5.5         5.1           5.2      5.5        5.3       5.6
Corridor Police                  5.8             4.9         3.9          4.9            5.1         3.9           4.3      4.6        4.6       4.7
Locker Room Clean                5.6             6.1         5.9          6.6            6.0         5.0           5.3      5.9        4.9       5.7
Locker Room Police               6.1             6.4         6.2          6.2            5.2         5.0           5.5      5.7        6.1       5.8
Lunch Room Clean                 6.5             6.6         6.6          6.6            6.4         6.5           6.4      6.5        6.4       6.5
Lunch Room Police                6.2             6.5         6.4          6.7            6.4         5.1           6.1      6.1        6.3       6.2
Dock Clean                       4.9             5.3         5.1          5.8            5.3         5.3           5.6      5.5        4.9       5.3
Dock Police                      5.5             5.4         5.5          5.4            5.4         4.5           5.5      5.6        5.4       5.3
Workroom Clean                   6.6             6.7         6.3          6.8            6.4         6.5           6.7      6.6        6.0       6.5
Workroom Police                  6.7             6.2         6.4          6.5            6.6         5.7           6.4      6.3        6.6       6.4
Workroom Toilet Clean            6.6             6.7         6.4          6.8            6.6         6.7           6.8      6.5        6.4       6.6
Workroom Toilet Police           6.5             6.2         6.4          6.4            6.4         5.6           6.1      6.0        6.3       6.2




                                                                                14
Custodial Maintenance: Nationwide                          DA-AR-09-011(R)



                       APPENDIX E: MANAGEMENT’S COMMENTS




                                      15
Custodial Maintenance: Nationwide        DA-AR-09-011(R)




                                    16
Custodial Maintenance: Nationwide        DA-AR-09-011(R)




                                    17
Custodial Maintenance: Nationwide        DA-AR-09-011(R)




                                    18
Custodial Maintenance: Nationwide        DA-AR-09-011(R)




                                    19
Custodial Maintenance: Nationwide        DA-AR-09-011(R)




                                    20
Custodial Maintenance: Nationwide        DA-AR-09-011(R)




                                    21
Custodial Maintenance: Nationwide        DA-AR-09-011(R)




                                    22
Custodial Maintenance: Nationwide        DA-AR-09-011(R)




                                    23
